OIG Investigative Reports Press Release St. Louis, MO., 03/26/2013 - Chairman Of The Board For The Paideia Academy/Employee Of St. Louis City Treasurer's Office Convicted Of Fraud Charges
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
THE UNITED STATES ATTORNEY'S OFFICE
EASTERN DISTRICT of MISSOURI
NEWS
Chairman Of The Board For The Paideia Academy/Employee Of St. Louis City Treasurer's Office Convicted Of Fraud Charges
FOR IMMEDIATE RELEASE
March 26, 2013
St. Louis, MO - After a seven-day jury trial,  Fred W. Robinson was convicted on multiple fraud charges involving his submission of false time sheets in the Treasurer's Office and his diversion of federal and state education funds from the Paideia Academy Charter School.
Robinson was the Chairman of the Board of Trustees for Paideia Academy, a Missouri charter school for kindergarten through eighth grade.  He maintained an office in the school's administration building and was involved in the day-to-day management and administration of the school.  Paideia was tuition free and funded by Federal and Missouri education funds intended for legitimate school operations.
According to testimony presented at trial, during 2009 and 2010, Robinson diverted approximately $242,333 of Paideia Academy funds for the purchase, construction, renovation and rehabilitation of a building at 4028 West Florissant Avenue in St. Louis for the purpose of developing and operating a Little People's Academy daycare center to be operated by Robinson and an associate through Paige C. Investments, LLC, in which Robinson had an ownership and financial interest.  Robinson failed to disclose his ownership and financial interest in the proposed daycare center to the Paideia Academy Board of Trustees.  Robinson's partner in the proposed daycare center was a friend and associate of Robinson who worked as a bartender at a lounge frequented by Robinson, and who had no background, experience or training in early childhood education or the operations of a daycare center.
Additionally, during each year from 2006 through 2010, as an employee of the Treasurer's Office for the City of St. Louis, Robinson submitted false weekly time sheets falsely certifying work hours and was paid approximately $35,360 each year in salary based upon those false time sheets.
FRED W. ROBINSON, St. Louis, MO, was convicted of one count of wire fraud and seven felony counts of federal program theft after a seven-day trial before United States District Judge Audrey G. Fleissig.  Sentencing has been set for July 19, 2013.
When asked about the likelihood of additional charges against other defendants, United States Attorney Richard G. Callahan stated, "The current status and progress of the investigation into the St. Louis City Treasurer's Office is reflected by the charges that have been filed to date.  No further charges are anticipated unless or until additional evidence is developed."
Other defendants that have been charged as part of the investigation are Dannielle Benson and Frank Habeebullah, both of whom plead guilty late last year.
Wire fraud carries a maximum penalty of 20 years in prison and/or fines up to $250,000; each count of federal program fraud carries a maximum penalty of ten years in prison and/or fines up to $250,000. In determining the actual sentences, a Judge is required to consider the U.S. Sentencing Guidelines, which provide recommended sentencing ranges.
This case is being investigated by the Federal Bureau of Investigation and the United States Department of Education, Inspector General's Office.  Assistant United States Attorney Hal Goldsmith is handling the case for the U.S. Attorney's Office.
Top
Printable view
Last Modified: 04/03/2013
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov